<html>
<title> - H.R. 3101, TWENTY-FIRST CENTURY COMMUNICATIONS AND VIDEO ACCESSIBILITY ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 3101, TWENTY-FIRST CENTURY COMMUNICATIONS AND VIDEO ACCESSIBILITY 
                              ACT OF 2009

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

                           Serial No. 111-131


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
77-908                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     2
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Parker Griffith, a Representative in Congress from the State 
  of Alabama, opening statement..................................     7
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     8
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     9
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     9
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    95
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    96
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, prepared statement..............................    97

                               Witnesses

Sergeant Major Jesse R. Acosta, United States Army (Retired), 
  American Council of the Blind..................................    10
    Prepared statement...........................................    13
Lise Hamlin, Director of Public Policy, Hearing Loss Association 
  of America, TiVo...............................................    20
    Prepared statement...........................................    22
Walter McCormick, President and Chief Executive Officer, United 
  States Telecom Association.....................................    33
    Prepared statement...........................................    35
Gary Shapiro, President and Chief Executive Officer, Consumer 
  Electronics Association........................................    40
    Prepared statement...........................................    43
James Assey, Executive Vice President, National Cable and 
  Telecommunications Association.................................    54
    Prepared statement...........................................    56
Bobby Franklin, Executive Vice President, CTIA--The Wireless 
  Association....................................................    62
    Prepared statement...........................................    64


H.R. 3101, TWENTY-FIRST CENTURY COMMUNICATIONS AND VIDEO ACCESSIBILITY 
                              ACT OF 2009

                              ----------                              


                        THURSDAY, JUNE 10, 2010

              House of Representatives,    
            Subcommittee on Communications,
                      Technology, and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Rick Boucher 
[chairman of the subcommittee] presiding.
    Present: Representatives Boucher, Markey, Inslee, Matsui, 
Castor, Stearns, Waxman [ex officio]; Shimkus, Terry, 
Blackburn, Griffith, and Latta.
    Staff Present: Amy Levine, Counsel; Roger Sherman, Chief 
Counsel; Tim Powderly, Senior Counsel; Greg Guice, Counsel; 
Shawn Chang, Counsel; Bruce Wolpe, Senior Advisor; Sarah 
Fisher, Special Assistant; Laurance Frierson, Intern; Alex 
Reicher, Intern; Elizabeth Letter, Special Assistant; Neil 
Fried, Minority Counsel; Will Early, Minority Senior Policy 
Counselor; and Garrett Golding, Minority Legislative Assistant.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The hearing will come to order. Good morning, 
everyone.
    Today our subcommittee examines a measure introduced by our 
colleague from Massachusetts, Mr. Markey, that seeks to update 
the laws governing access to communications services by 
individuals with disabilities.
    There are nearly 1 billion Americans who have profound or 
severe hearing loss and more than 1 million who are legally 
blind; 4 percent of our population has great difficulty 
hearing; and an additional 3 percent are visually impaired.
    Moreover, as some of us might not want to admit, America is 
aging. There are approximately 40 million people over the age 
of 65 living in the United States today. That amounts to 13 
percent of our national population. One estimate shows that by 
the year 2050, that number will more than double to 88.5 
million, or an estimated one-fifth of our national population. 
Naturally, this growth in our aging population will be 
accompanied by an increase in the number of Americans who are 
vision- or hearing-impaired and who will need accessible 
communications products and services.
    With the explosion in Internet-delivered content, both the 
variety of information and entertainment offerings and the 
complexity and variety of the devices that receive those 
services have multiplied. The challenge that we as lawmakers 
have is to assure that all Americans can benefit from these 
advances, including individuals with vision or hearing 
impairments. We will learn this morning about the steps that 
industry is already taking to make services and devices 
accessible by the vision- or hearing-impaired.
    For example, my iPhone can be made accessible to the 
visually impaired, straight out of the box with the touch of an 
existing button. With the rapid growth of smartphones, an 
increasing number of Americans can download inexpensive third-
party applications that perform functions like text-to-speech 
and speech-to-text.
    In the video programming arena, an increasing amount of 
video content is now available on the Internet in a closed-
captioned format, including the video programming of Disney, 
CBS, noncommercial station WGBH, and videos on YouTube. CBS 
offers video description of its television programming, 
notwithstanding the absence of any legal requirement that it do 
so.
    These industry steps clearly mark progress. The question 
now is what requirements government should consider imposing 
that will move beyond encouraging the voluntary actions that 
industry has already taken so as to ensure that an even greater 
range of services and devices are broadly accessible to people 
with disabilities.
    This year marks the 20th anniversary of enactment of the 
Americans With Disabilities Act. We have come a long way in the 
two decades since 1990, but we can go further, both in terms of 
voluntary steps by industry and in terms of targeted regulation 
to ensure the accessibility of technology for persons with 
disabilities.
    H.R. 3101, authored by Mr. Markey, provides an outstanding 
starting point for that consideration.
    I appreciate that all of the stakeholders at the witness 
table today, although none are at the witness table at the 
moment, but all who will be at the witness table shortly have 
been engaging with us on a bipartisan basis in order to reach 
consensus on revisions to H.R. 3101, and I look forward to our 
continued work together.
    I would also note that, on a bipartisan basis on the 
subcommittee member level and staff level, we are engaged with 
the interested stakeholders in that collaborative process, and 
I look forward to a successful conclusion of our work.
    I want to thank our witnesses for their attendance today. 
And I also want to thank Sergeant Major Acosta for his service 
and sacrifice to our country.
    That concludes my opening statement, and I am pleased now 
to recognize the ranking Republican member of our subcommittee, 
the gentleman from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning. And thank you, Mr. Chairman. And 
I am very pleased that we are having this hearing today.
    As we discuss many times in this subcommittee, the Internet 
and new technologies have transformed the way we all live and 
we work. Geographic boundaries no longer exist. For example, 
you could download a movie from another country--legally, of 
course--sitting on a beach in Florida, while participating in a 
video conference in Washington, D.C. All of this has been made 
possible because Congress has let the marketplace flourish by 
allowing consumers to decide what technologies will work for 
them.
    However, as the technological revolution speeds along, it 
is important to ensure that people with disabilities are not 
left behind. All people should be afforded the opportunity to 
use and enjoy the amazing technology that is available. We can 
all agree on that point.
    The question then is, What is the best way to achieve this 
goal? Do we need more government regulation? Or do we need to 
allow the markets to work with as light a regulatory touch as 
possible? These are the questions that we need to explore 
during today's hearing, and I look forward to hearing answers 
to these questions.
    Under the Communications Act, manufacturers and carriers 
are already required to make telecommunication devices and 
services accessible to people with disabilities when doing so 
is readily achievable. The statute also requires telephones to 
be hearing-aid compatible, requires telecommunication providers 
to help pay for operators that relay phone conversations 
between people with hearing or speech disability and people 
without disability, and requires television programming to be 
closed captioned.
    Nevertheless, we are becoming victims of our own success. 
Due to the success of our deregulatory policies, many new 
technologies have evolved, and they do not fall within the 
existing statutory language. This hearing will investigate 
whether H.R. 3101 strikes the right balance of extending the 
benefits of technology to people with disabilities without 
restricting innovation.
    One of the provisions in H.R. 3101 requires closed 
captioning of all digital video, including HD. Sometimes HD is 
transmitted between a set-top box and a television using an 
HDMI port. Unfortunately, this port is not configured to allow 
for closed captioning pass-through. There are a variety of ways 
to accomplish closed captioning; therefore, it is important 
that the legislation permit some ports that do not pass through 
closed captioning, so long as captioning can be delivered to 
the TV via an alternative port or rendered in the set-top box.
    It is also important to clarify who is responsible for the 
set-top box display. Manufacturers build the set-top box 
hardware and carriers build the software. This distinction 
should be addressed in the legislation in order to clarify 
which entity is responsible for which features.
    In many areas, industry is already taking the necessary 
steps to make certain that their products and their 
applications are accessible to all people. The iPad, for 
example, has been lauded as revolutionary not just by the 
general public, but also by accessibility advocates, because it 
includes breakthrough accessibility features. This suggests 
that the broader market could be providing better access to 
people with disabilities than it does today.
    Conversely, Apple and others argue that if the iPad had 
been subject to detailed mandates from Congress such as 
requirements regarding the design of the raised buttons, the 
flat-screen device might not have made it to the market. They 
argue that the right approach is perhaps to establish 
accessibility goals, but not dictate how to accomplish them. We 
need to allow innovation to continue to flourish.
    The goals of H.R. 3101 are certainly laudable, and we can 
all agree on the final destination: Ensure that all people are 
able to take advantage of the remarkable technology that is 
available. Will this legislation take us there? Are there 
changes we might make that would better support accessibility 
goals and our goals of promoting innovation?
    An earlier discussion draft of this legislation benefited 
greatly from conversations between the wireline phone industry 
and accessibility groups. Those discussions led to changes 
supported by all sides which are reflected in the current 
draft. My hope, Mr. Chairman, is that ongoing discussions with 
other segments of the communications industry will result in 
similar improvements. So I hope this hearing will shed some 
light on these questions and offer up some solutions as well.
    Thank you, Mr. Chairman, for this hearing. And I look 
forward to our witnesses.
    Mr. Boucher. Thank you very much, Mr. Stearns.
    The author of the legislation before us today, the 
gentleman from Massachusetts, Mr. Markey, previous chairman of 
this subcommittee, is recognized for 2 minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much.
    We can't have a more important hearing. We welcome back to 
the subcommittee Sergeant Major Jesse Acosta, who testified 
back in May of 2008. We thank you, sir, for your service to our 
country.
    I think many of our brave men and women in uniform, such as 
Sergeant Major Acosta, return from Iraq and Afghanistan with 
injuries that impair their vision and their hearing, and this 
gives us a great opportunity to help them to be full 
participants in our great American economic and social and 
cultural heritage.
    This legislation is something that will update laws of the 
1990s that really did transform the relationship between people 
with disabilities and these technologies. Increasingly, this 
digital skill set is the passport to full participation in our 
society. And it is happening. It is happening in the 
marketplace, just not as rapidly as we would like to. The iPad, 
for example, has the capacity for people who need to be able to 
listen, because they are not able to read, as clearly as those 
who are more blessed. And if we press the dial, let's see here.
    Wouldn't it be great if, for a very inexpensive, very small 
amount of money that not just the iPad, but every device, made 
it possible for people to read or hear Bob Ryan's column in the 
Boston Globe today about how Ray Allen is going to shake out of 
his slump from Tuesday night's game and hit all of his 3s 
tonight against the Lakers? Well, that is what the iPad makes 
possible, but people shouldn't have to pay hundreds of 
thousands of dollars in order to access this information. We 
should make it a generic standard technology for all of the 
devices that we have in our country so that everyone is able to 
be able to participate in this great information revolution 
that we have in our country.
    Mr. Chairman, thank you so much for this hearing. This is 
about as great a gift as we are going to be able to give to 
tens of millions of people in our country as this Congress will 
provide us. Thank you.
    Mr. Boucher. Thank you very much, Mr. Markey.
    The gentlelady from Tennessee, Mrs. Blackburn, is 
recognized for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. Thank you for the 
hearing. And I want to say welcome to all of our witnesses who 
are here today and to all of our guests. As we are approaching 
this 20th anniversary of the Americans With Disabilities Act, I 
am pleased that we are taking the issue up and are going to 
spend some time on it.
    I think we all agree that e-commerce is thriving. As our 
ranking member said, we have taken a hands-off approach to the 
Internet, and I think it is going to be important that we 
strike the proper balance of making the Internet and all 
mediums of communication accessible to the disabled without 
stifling innovation or imposing undue technological burdens on 
the companies who actually are doing the innovation and 
creating the software and the technology that we are not only 
enjoying but that we all come to rely on more and more every 
day.
    And as we move forward at what is appearing to be a very 
aggressive pace, my hope is that we are going to slow this down 
enough to get it right and get this legislation right. It is 
unfortunate that time and again we pass bills and then we come 
back and we tweak bills. I hope that we are going to slow down 
and do this right. If we fail to get the proper balance between 
accessibility and encouraging innovation, then we know that we 
are going to have unforeseen and unintended consequences that 
we will be back dealing with. It is too important an issue to 
do that.
    I welcome you all. Mr. Chairman, I thank you. And I yield 
back.
    Mr. Boucher. Thank you, Mrs. Blackburn.
    The chairman of the full Energy and Commerce Committee, the 
gentleman from California, Mr. Waxman, is recognized for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Today marks the first step in the process to ensure that 
Americans with disabilities can more fully participate in our 
evolving Internet-based society. We will do so by updating the 
laws concerning access by persons with disabilities to 
communications services and to video programming. The last 
update of these laws occurred in 1996 when most phone calls 
were made over a copper line and when TV signals were broadcast 
in analog.
    As members of this committee, we are acutely aware dramatic 
changes have occurred since 1996. We need to bring, at long 
last, our fellow Americans with disabilities across the digital 
divide. I am pleased that Ranking Member Barton, Subcommittee 
Chairman Boucher, and Ranking Member Stearns share my 
commitment to moving legislation that addresses these issues on 
a bipartisan consensus basis, and committee staff has been 
working together to achieve that goal.
    Ideally we would have a bipartisan bill on the House floor 
during the week of July 26. That week marks the 20th 
anniversary of the enactment of the landmark Americans With 
Disabilities Act. I can think of no better way to mark that 
anniversary than by bringing to the House floor bipartisan 
legislation that increases access to digital communications and 
media for those with disabilities.
    With that in mind, today I want this hearing to outline and 
clarify where agreement exists on the provisions contained in 
H.R. 3101 and where some adjustment may be necessary. And in 
doing this, I want to pay tribute to the work of our colleague, 
Congressman Markey, who introduced legislation and has been the 
pioneer in pushing this issue.
    Our intent is to encourage industry and other stakeholders 
towards consensus quickly. I am aware that some industry 
participants and associations have not fully engaged in the 
discussions to date or have been unable to come up with a 
position on this matter. I urge these companies and 
associations to engage immediately on the pending legislation.
    There are many success stories concerning the development 
of accessible technologies absent a legislative mandate. For 
example, Apple makes many of its products accessible. And when 
the D.C. Circuit threw out the FCC's first set of video 
description rules, CBS did not stop making that service 
available--and continues to do so today.
    These initiatives are to be applauded, but more can and 
should be done. Just as accessibility is designed into new 
buildings, the same should be true with regard to 
communications services and devices. Ultimately our goal is to 
find a legislative solution that meets the needs of the 
disabled community and gives industry the flexibility and 
incentives that it needs to move forward successfully. We can 
take the benefits of laws for disabled Americans, put them 
together with the best initiatives from the private sector, and 
pass legislation that brings 21st century communications and 
media technology to Americans with disabilities.
    I want to thank Mr. Markey for introducing this important 
legislation, Mr. Boucher for scheduling this timely hearing, 
and all my colleagues for their willingness to work together to 
pass a law and to meet this momentous occasion. Thank you, Mr. 
Chairman.
    Mr. Boucher. Thank you very much, Chairman Waxman.
    The gentleman from Alabama, Mr. Griffith, is recognized for 
2 minutes.

OPENING STATEMENT OF HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. I would like to thank the chairman and 
ranking member and chairman for calling this hearing today, and 
to thank all the witnesses that will appear here to testify 
before this committee.
    Alabama, the home of Helen Keller, but, more importantly, 
the Alabama Institute for the Deaf and Blind, has always been 
on the cutting edge. Dr. Graham and his staff are absolutely 
wonderful. It is over a century-old institution devoted to the 
subject we are addressing today.
    I am a proud sponsor of H.R. 3101, and I am happy this 
hearing has been called. While I am mindful of the few 
provisions that need to be worked out amongst us, I am hopeful 
that we can move this legislation forward as we near the 20th 
anniversary of the Americans With Disabilities Act.
    I believe it is imperative that we continue to focus on 
innovation and ingenuity. Over the last decade we have made 
great strides in producing technologies that Americans with 
disabilities rely on. We must remember what brought us here, 
which was really a free market, less regulation. This bill 
seeks to mandate certain technologies, and I am sure that we 
will work this out in committee so that it will be a 
satisfactory bill for all. These provisions need some work; 
however, I think the committee in general is very, very much 
excited about this bill and I think we will pass it.
    Nonetheless, the overall goal of this legislation should be 
commended. I look forward to working with my colleagues as we 
press forward to find solutions that extend the benefits of the 
Internet to people with disabilities.
    Mr. Boucher. Thank you very much, Mr. Griffith.
    The gentlewoman from California, Ms. Matsui, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for calling today's 
hearing. And I would like to thank the witnesses for joining us 
today.
    As we continue our efforts to expand broadband access to 
more and more Americans, disabled Americans must not be left 
behind. Every American, including those who are challenged, 
requires access to updated technologies for personal use, to 
compete for a job, and to be able to communicate and work in a 
sound environment.
    We are seeing a greater need to assist the number of our 
service members who are returning from the battlefields of Iraq 
and Afghanistan disabled and are seeking to return to some 
sense of normalcy. Access to modern technology will help them 
achieve that.
    Disabled Americans should have access to the same 
communications products and services that everyone else does. I 
applaud my good friend, Congressman Markey, for his leadership 
on providing greater technological access to disabled 
individuals. His legislation would help ensure that the 
disabled are able to fully access and utilize broadband 
services and video programming devices, and I plan to add my 
name today as a cosponsor to this important legislation.
    We must modernize technologies to make certain that 
disabled Americans are able to enjoy the benefits of an 
increasingly diverse and innovative menu of applications and 
services. It is my hope that all stakeholders continue to work 
together to advance this legislation in an expedited fashion.
    Mr. Chairman, thank you very much for holding this 
important hearing today. I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Ms. Matsui.
    The gentleman from Ohio, Mr. Latta, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you, Mr. Chairman, Ranking Member Stearns. 
Thank you very much for holding this subcommittee hearing today 
on H.R. 3101, the 21st Century Communications and Video 
Accessibility Act.
    It is my understanding that the legislation would expand 
accessibility for individuals with vision, hearing, and other 
disabilities to Internet-enabled communications services, 
equipment and software. With the latest technology and 
innovation in the marketplace, it is important that these 
individuals with these disabilities have access to Internet-
related communications and equipment.
    I am very interested to hear from our panelists today 
regarding their ideas and suggestions for helping to reach a 
consensus on how best to move forward on the issues in this 
legislation. The Internet and all the communications services 
related to it is an important tool for employment 
opportunities. It is also a gateway for individuals to be 
connected to the greater community.
    While working on this legislation, this subcommittee needs 
to work with all the stakeholders to ensure that all the 
benefits of the Internet are extended to these individuals with 
disabilities, without placing mandates on private industry that 
curb innovation.
    Technology is constantly changing, and it is difficult for 
Congress to legislate policy for new technological devices that 
will exist in the years ahead. As we move forward on this 
legislation and other bills in this subcommittee, I firmly 
believe that we must allow industry to continue to be 
innovative; and by doing this, it will allow the marketplace to 
provide for all these individuals. Through the process, we must 
not mandate such detailed items for certain devices that it 
prevents technology from moving forward.
    I hope that all stakeholder groups involved in this issue 
can work towards a consensus that better provides access to all 
individuals with vision, hearing, and other disabilities on 
these Internet-enabled communication devices, equipment and 
software. I look forward to the hearing and the testimony 
today, and I look forward to continuing to work on this 
important issue.
    Thank you, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you very much, Mr. Latta.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 2 minutes.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. I just want to thank everyone who is 
working on this bill because it is important, obviously, not 
just to the individuals who need this access, but to the whole 
U.S. economy.
    I just want to note that the ability to perfect this 
technology is important to all of us, not just to those who use 
the technology, but those who benefit by the genius of those 
who use technology and their ability to participate in the U.S. 
economy as employees and associates and business leaders. So it 
is important for all of us to get this right.
    I just want to make one note. I think we do have some work 
to do on the bill to try to make sure that the disabled 
community has access to evolving technology. We do not want to 
limit access to just today's technology, because one thing we 
know for sure about today's technology is that it will be 
obsolete and surpassed by new technology within 2 or 3 weeks. 
And I think there are some things we need to do to the bill to 
make sure that we capture that evolving technology so that we 
have full access to all of those new innovations, and I am 
confident we can do that.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Inslee.
    The gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. It is interesting, just 
over our Memorial Week break, I had a couple of meetings. One 
was with the deaf community on video relay services and some of 
the actions that are taken by the FCC to make it unaffordable 
for video relay service providers to continue. Then another 
group of Alzheimer's patients that are using a new technology, 
too, to allow special younger onset to use a touch-screen video 
pad that would allow them to be able to better communicate with 
their families. So it is interesting that this hearing is after 
those two meetings where the subjects were the integration of 
technology to overcome any obstacles by way of a handicap, to 
neutralize that handicap.
    So I embrace the technology, and I want to make sure that 
we are encouraging the development of technology specifically 
to aid anyone that has a handicap. What I want to make sure is 
that we reach the right balance of making sure that this new 
technology emerges, that it is accessible to all of those who 
need it without creating economic hardships by way of too many 
mandates placed on any one technology or system.
    So I am anxious to hear from our witnesses today to help us 
reach that right balance, and I yield back the balance of my 
time.
    Mr. Boucher. Thank you very much, Mr. Terry.
    All members have been recognized for their statements.
    And we welcome now our panel of witnesses. And I would ask 
that our witnesses proceed to the witness table. We will be 
happy to have you appear before us and receive the benefit of 
your testimony. And while you are taking your seats, I will 
offer just a brief word of introduction about each of our 
witnesses this morning.
    Sergeant Major Jesse Acosta of the United States Army 
(Retired) is testifying on behalf of the American Council of 
the Blind and the Coalition of Organizations for Accessible 
Technology. And I understand this is the second appearance 
before our subcommittee for Sergeant Major Acosta.
    Ms. Lisa Hamlin is the Director of Policy for the Hearing 
Loss Association of America, and is testifying also on behalf 
of the Coalition of Organizations for Accessible Technology.
    Mr. Walter McCormick is the President and CEO of the United 
States Telecom Association.
    Mr. Gary Shapiro is the President and CEO of the Consumer 
Electronics Association.
    Mr. James Assey is the Executive Vice President of the 
National Cable and Telecommunications Association.
    And, Mr. Bobby Franklin is the Executive Vice President of 
the CTIA, the Wireless Association.
    We welcome each of our witnesses this morning. Without 
objection, your prepared written statements will be made part 
of our record. We would welcome your oral presentations, and 
ask that you try to keep those presentations to approximately 5 
minutes.

STATEMENT OF SERGEANT MAJOR JESSE R. ACOSTA, UNITED STATES ARMY 
    (RETIRED), AMERICAN COUNCIL OF THE BLIND; JAMES ASSEY, 
EXECUTIVE VICE PRESIDENT, NATIONAL CABLE AND TELECOMMUNICATIONS 
 ASSOCIATION; BOBBY FRANKLIN, EXECUTIVE VICE PRESIDENT, CTIA--
   THE WIRELESS ASSOCIATION; LISE HAMLIN, DIRECTOR OF PUBLIC 
POLICY, HEARING LOSS ASSOCIATION OF AMERICA; WALTER McCORMICK, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, UNITED STATES TELECOM 
 ASSOCIATION; AND GARY SHAPIRO, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, CONSUMER ELECTRONICS ASSOCIATION

    Mr. Boucher. And Sergeant Major Acosta, you are sitting to 
the far right of the table, and we will be happy to begin with 
you. I would ask that you pull the microphone in front of you 
as close as you can and speak as directly into it as possible, 
and that way we can hear you better.

               STATEMENT OF SERGEANT MAJOR ACOSTA

    Sergeant Major Acosta. Good morning, Chairman Boucher, 
Ranking Member Stearns, members of the subcommittee, and you, 
sir, Ed Markey, thank you very much for having me here the 
second time. This is round number two.
    Well, as you have heard, it is extremely important that 
this measure, H.R. 3101, passes, primarily for those of us who 
find ourselves completely blind, visually impaired, and in 
other situations with hearing impairment.
    I was here a couple of years ago testifying in front of 
Congress, or this subcommittee, on this issue. Fast forward. 
Well, some of the measures as far as 21st century has moved 
forward. We went from analog to digital. But wait. We forgot 
about the blind and those who have hearing problems. What did 
that do for us? Absolutely nothing.
    The reason why I bring this up immediately is because I 
just recently bought two giant flat-screen TVs, and not one of 
them will show a scroll, so that way I can see what is going on 
in case of an emergency. Remember, I come from the State of 
California where we shake and bake. And so here I am, 
testifying again on these measures.
    Well, here is the story that we all don't like to hear, but 
it has to be said. As I was discussing with a gentleman early 
this morning, I got hit by a bomb. I had my eyesight all my 
life. I was a happy camper. I come home, losing my eyes. I had 
no idea what it was like, living in the blind community. I have 
been educated tremendously for the past 4 years, now 4\1/2\ 
years, and I have embraced it. I have adapted. But here is one 
thing I have not been able to embrace. Being that I live in the 
United States of America, one of the wealthiest, most powerful 
countries in the world, I laid my life on the line. And I come 
home in this situation and find myself--what is out there for 
me?
    Well, it is sad to say not a whole lot is out there for us 
with the exception, of course, of Apple. Thank you, Apple. 
Maybe they ought to get into TV production or mass production. 
But there, again, what does it take for us to serve our blind 
community or those with disabilities?
    It is sad to say that whatever is out there for us, it is 
going to cost those individuals who--let's say the blind 
community, 80 percent are unemployed--cannot afford to purchase 
these items. But Apple has made it accessible to us. You pull 
it out of the package, and there it is. It is all there.
    I testified also on the use of the cell phone, the 
accessibility. That is why I am going back and forth.
    And before I do forget, prior to me getting on board that 
plane, when I testified 2 years ago, there was a company out 
there, one of the wireless companies that was going after me, 
wanting to introduce to me one of the hottest products they had 
on the market. Well, they met me when I got home after hearing 
my testimony about how my experiences were with Sprint. Has 
anything changed? Absolutely not. They introduced to me--and I 
have that phone here with me. For some reason or another, I 
don't know why, I kept it. It is completely flat. It is 
absolutely no use to me. But I keep it as a backup, so that way 
I can ask someone to help me, guide me through this phone.
    Well, I am sorry to say 34 years of service didn't prepare 
me for this. Yes, we know all that. I was used to pulling the 
trigger, pulling the pin and throwing a grenade, digging a 
foxhole or parapet, crawling, doing what I had to do to defend 
this country. So do I have feelings in my hands or my fingers? 
Absolutely not. I carry with me a phone that is 4 years old, an 
LG 8300 that is more pronounced. Old, but at least I can feel 
the buttons and I can dial out. I couldn't do that with this 
phone introduced to me. And they were doing me a favor?
    Well, let me put it in perspective here. By all means, 
whatever you can do to protect your eyes, whatever you can do 
to protect your hearing, do so. Because if you fall in the 
category I have, don't be surprised, there is nothing out there 
for you.
    We go to the VA system. And I have to bring this up because 
they are supposed to be able to provide me with devices in 
order to make my living a little more easier, accessible, and, 
in some cases, get back to the workforce. What an absolute 
disaster that has been. I just recently retired from the United 
States Army, 34 years of service as a Sergeant Major, the 
highest enlisted in rank. If it wasn't for Southern California 
Gas Company creating a position for me as a customer service 
data analyst in management and being able to work with a 
Webmaster, showing them where they are going wrong in order to 
improve on the Web site, which they have. What would it take? 
All it took was a little bit of open arms to greet us.
    Listen to us, and let's make a difference together. Let's 
not make that mistake. Let's pass this initiative, H.R. 3101. 
Thank you, sir.
    Mr. Boucher. Thank you very much, Sergeant Major Acosta. 
And thanks again for your long service and outstanding service 
to the United States.
    [The prepared statement of Sergeant Major Acosta follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.001
    
    [GRAPHIC] [TIFF OMITTED] T7908A.002
    
    [GRAPHIC] [TIFF OMITTED] T7908A.003
    
    [GRAPHIC] [TIFF OMITTED] T7908A.004
    
    [GRAPHIC] [TIFF OMITTED] T7908A.005
    
    [GRAPHIC] [TIFF OMITTED] T7908A.006
    
    [GRAPHIC] [TIFF OMITTED] T7908A.007
    
    Mr. Boucher. Ms. Hamlin, we will be happy to hear from you.

                    STATEMENT OF LISE HAMLIN

    Ms. Hamlin. Thank you. Good morning, Mr. Chairman, Ranking 
Member Stearns, and members of the Subcommittee on 
Communications, Technology, and the Internet. I am Lise Hamlin. 
I am the director of public policy for Hearing Loss Association 
of America. I am privileged to provide this testimony on behalf 
of HLAA and the Coalition of Organizations for Accessible 
Technology.
    The 21st Century Communications and Video Accessibility Act 
of 2009 is a consensus bill supported by COAT and key 
communications and video program providers, AT&T, Verizon, U.S. 
Telecom and Windstream. But first, I want to thank you for 
making this hearing accessible by providing ASL interpreters; 
the captioning on the screens; and, for me, an assisted 
listening device, because I use both a hearing and a cochlear 
implant.
    One morning when I was 28 years old, I woke up with a 
severe to profound hearing loss. The first two devices that I 
purchased was a volume control phone and a closed captioned--
one of those big old closed-captioned decoders for my 
television. Those two devices allowed me to feel like I was no 
longer shut off from the world I once knew. This type of 
technology helps millions of people, including those baby 
boomers who are aging into hearing loss.
    During the 1980s and 1990s, Congress took major steps to 
improve telecommunications access for people with disabilities; 
however, many advanced communication technologies are not 
covered by these existing Federal laws. Today, nearly 20 years 
after the Americans With Disabilities Act became law, it is 
important to ensure access to communication. Communication 
allows us equal opportunity to education, employment, and full 
participation in American civic life and society.
    So why don't companies make their products and services 
accessible? Well, it is possible there are a few reasons. Lack 
of awareness. They just don't know. An unwillingness to invest 
in resources or a desire to make the best possible price and 
reach the broadest market appeal to maximize their competitive 
edge. However, accessibility should not be subject to a 
popularity contest.
    That is why I am here today. When you tell all companies to 
make advanced communication services and accessible equipment, 
all companies are affected equally. Accessibility requires and 
then spurs innovation and makes products and services more 
useful to people with and without disabilities. Designing 
accessibility into new products is more effective and more cost 
efficient than retrofitting. These are the principles of 
universal design contained in section 255 of the Communications 
Act, and they are the principles behind H.R. 3101.
    Now, people with disabilities cannot afford to be relegated 
to obsolete technologies, to only high-end, high-tech, high-
cost equipment or to specialized equipment that is hard to find 
and expensive. We want an equal opportunity to benefit from the 
full range of advanced communications products and services. 
And we believe H.R. 3101 will achieve the greatest possible 
increase in communication access.
    We support H.R. 3101's definition of advanced 
communications to include non-interconnected as well as 
interconnected VOIP, video conferencing, and electronic 
messaging. And we support the adoption of the well-established 
and appropriate undue burden compliance standards for 
prospective obligations. We also support the requirement of 
captioning decoder and display capability in all video 
programming devices, the extension of closed-captioning 
obligations to video programming distributed over the Internet, 
and that requires easy access to closed captions via remote-
controlled and on-screen menu.
    For people who are blind or low vision, H.R. 3101 does 
require easy access to television controls and on-screen menus, 
and restores video description rules and requires access to 
televised emergency information.
    Now, it took us decades to achieve hearing-aid 
compatibility for telephones, both wireless and wireline; 3101 
will ensure telephones that are connected to the Internet will 
be hearing-aid compatible. And when nationwide relay services 
were established 20 years ago, the only service available was a 
TTY, which connected TTY users to other telephone users. Today 
I use relay services with a captioned telephone, but I am 
unable to connect to friends who communicate in American Sign 
Language, who use video relay conferencing equipment, because 
we use two different kinds of relay services. H.R. 3101 will 
allow us to call each other.
    H.R. 3101 will also establish uniform and reliable real-
time text standards for communicating in real time over the 
Internet, which is hugely important in emergency situations.
    And, finally, H.R. 3101 will enable income-qualified people 
with disabilities to use Lifeline or Linkup subsidies for 
broadband services, and it will authorize $10 million annually 
from the Universal Service Fund for specialized 
telecommunications devices needed by people who are both deaf 
and blind.
    Mr. Chairman, I thank you for this opportunity to testify 
here, and I hope it has given you a little insight into why we 
support this important bill.
    Mr. Boucher. It has indeed. Thank you very much, Ms. 
Hamlin.
    [The prepared statement of Ms. Hamlin follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.008
    
    [GRAPHIC] [TIFF OMITTED] T7908A.009
    
    [GRAPHIC] [TIFF OMITTED] T7908A.010
    
    [GRAPHIC] [TIFF OMITTED] T7908A.011
    
    [GRAPHIC] [TIFF OMITTED] T7908A.012
    
    [GRAPHIC] [TIFF OMITTED] T7908A.013
    
    [GRAPHIC] [TIFF OMITTED] T7908A.014
    
    [GRAPHIC] [TIFF OMITTED] T7908A.015
    
    [GRAPHIC] [TIFF OMITTED] T7908A.016
    
    [GRAPHIC] [TIFF OMITTED] T7908A.017
    
    [GRAPHIC] [TIFF OMITTED] T7908A.018
    
    Mr. Boucher. Mr. McCormick.

                 STATEMENT OF WALTER McCORMICK

    Mr. McCormick. Mr. Chairman, Ranking Member Stearns, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today.
    Mr. Chairman, our industry has a long history of supporting 
communications access for persons with disabilities. Indeed, 
our founding father, Alexander Graham Bell, was a teacher of 
the deaf; and his invention of the telephone in 1876 grew out 
of efforts to devise a hearing assistance device.
    Our industry led the way in developing the first hearing 
aids and artificial larynxes. And as we approach the 20th 
anniversary of the Americans With Disabilities Act this July, I 
would note that Title IV, mandating the creation of a 
nationwide telecommunications relay service, was one of the 
first completed and least controversial sections of that 
landmark legislation.
    Likewise, during the mid-1990s, we worked closely with the 
disabilities community to develop what is now section 255 of 
the Communications Act, which requires that telecommunications 
services and equipment be made accessible and useable by the 
disabled.
    Mr. Chairman, in 2008, 2 years ago, at the urging of 
Representative Markey, we commenced discussions with COAT aimed 
at updating the law to reflect the Nation's shift to IP-based 
communications. Those discussions were comprehensive and 
productive. Over the course of more than 15 months we learned a 
lot. Working together, we more precisely identified the needs 
of the disabled. We also gained an appreciation for the 
frustrations that the disabled community has with procedures of 
the Federal Communications Commission.
    Today, apart from technical fixes to address minor 
inadvertent omissions, our joint work with COAT is fully 
reflected in H.R. 3101. It will extend disability access 
provisions to IP-enabled services and equipment and to new 
video programming technologies. Among the bill's most helpful 
additions to current law are enforcement procedures that will 
put remedies for noncompliance on the fast track, Lifeline and 
Linkup support for those who meet eligibility requirements, and 
the establishment of an advisory committee on emergency access 
and real-time text to provide recommendations to the FCC and 
Congress.
    And much as we appreciate the introduction earlier this 
month of S. 3304, Senate legislation, we prefer the House bill 
because it more appropriately reflects the need for 
technological parity and a level playing field for all advanced 
communications service providers and manufacturers.
    Mr. Chairman, prior to the passage of the ADA, Americans 
with disabilities grew justifiably impatient with claims that 
making public accommodations, public transportation, and 
communications services and equipment accessible just couldn't 
be done at reasonable cost. What our industry has found in the 
course of the last 25 years is that both we and the disability 
community benefit from the certainty and focus that a sound and 
sensible legal road map for achieving accessibility provides. 
We believe that with such a road map, talented engineers and 
business people across the Internet landscape will respond in 
good faith.
    Again, we thank you very much for the opportunity to appear 
today.
    Mr. Boucher. Thank you, Mr. McCormick.
    [The prepared statement of Mr. McCormick follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.019
    
    [GRAPHIC] [TIFF OMITTED] T7908A.020
    
    [GRAPHIC] [TIFF OMITTED] T7908A.021
    
    [GRAPHIC] [TIFF OMITTED] T7908A.022
    
    [GRAPHIC] [TIFF OMITTED] T7908A.023
    
    Mr. Boucher. Mr. Shapiro.

                   STATEMENT OF GARY SHAPIRO

    Mr. Shapiro. Chairman Boucher, Ranking Member Stearns, and 
members of the subcommittee, thank you for this opportunity to 
testify on the laudable goal, which I think we all share here, 
of ensuring access to new technologies by persons with 
disabilities.
    I am very proud to represent some 2,000 technology 
companies who in a short period of time, both individually and 
collectively, have changed how all Americans have accessed 
entertainment and education.
    Now, our industry has a very long and proven commitment to 
providing products and services to the disabled community 
without government intervention. From advances in screen 
readers, closed captioning on mobile devices, to GPS 
applications for the blind, we have radically transformed how 
most disabled Americans can stay informed and connected.
    We have had several meetings with COAT to understand the 
issues they are trying to address in this legislation, and we 
agree that there is definitely a need for better communication 
of the accessible products and services that are available 
today in the marketplace. With this in mind, we applaud the 
bill's establishment of a clearinghouse of information of the 
availability of accessible products and services.
    The consumer electronics industry invented closed 
captioning, and is a good example of a narrow government 
intervention with a very positive result. During the process, 
Congressman Markey changed the proposal to give manufacturers 
flexibility in implementing the requirement. The result is that 
captioning comes in various ways through industry-agreed upon 
standards. And indeed, we are now working on voluntary 
solutions for closed captioning of video content distributed 
over broadband networks.
    While we share the goal of providing access to technology 
to all persons, our experience has taught us that voluntary, 
multi-stakeholder, open due process, and approved standard-
setting efforts are a better way to go than simply mandating 
that every function of every product be accessible to people 
with every type of disability.
    To put it simply, mandating universal design is an 
innovation killer. Innovation leads to accessibility, not the 
other way around. The V-chip represents a consumer electronics 
innovation that turned into a failure after it was rushed 
through Congress as a mandate and one patent owner imposed huge 
costs on all involved, as it believed Congress had mandated the 
use of its technology. The result still today is a cumbersome 
and complicated system which few parents use. Innovation and 
parental control technology has happened through market forces 
entirely outside the congressionally mandated V-chip solution.
    So we have to learn from these past mistakes. We understand 
and we share the desire and compelling case for expanding the 
access of technology to Americans with disabilities. However, 
H.R. 3101 is extremely broad in its scope, chilling innovation 
and entry of new products. Moreover, it ignores the great 
number of products in the market which are increasing every day 
and serve the needs of many in the disability community.
    According to C-NET, 190 wireless phones are hearing-aid 
compatible, over 400 are TTY-compatible, over 1,200 have 
vibrating alert capability, 5 allow audible battery alert, and 
over 300 have voice control capability. And you can do this 
with a simple Web search which allows comparisons by accessible 
features.
    Now, certainly we strive to ensure that no American is left 
behind, but innovators do need flexibility to introduce new 
products. Given the multiple and sometimes conflicting needs of 
persons with different levels of ability, manufacturers can 
address these needs with freedom to invent and sell a great 
number and variety of products. From a technical and financial 
perspective, manufacturers simply cannot incorporate every 
accessibility feature into each and every device.
    Now, our written statement is very specific about the 
concerns we have with this legislation. The definitions are 
broad. They will likely capture almost every electronic 
product. Indeed, with the move to Internet protocol V-6, IPV-6, 
almost every product using electricity will be connected to the 
Internet. Video games, lighting and security systems, home 
control systems, and even automobiles will all be subject to 
the overwhelming universal design mandates in this bill.
    If our objective is to both encourage innovation and 
provide accessible products and services, this legislation must 
recognize that we are edging up against the bounds of physics 
and engineering. For example, hand-held can only have screens 
so large or so many function keys or buttons before they are 
rendered unusable.
    Another problematic provision in the bill is that it 
retains the outdated accessibility followed by compatibility 
regime of section 255, and then makes it worse by saying with 
this new heightened undue burden standards, today's software-
based telecom and media devices are compatible or interoperable 
with software-based assistive technologies.
    Today in America we obviously face a very difficult, 
challenging economic situation, and it is going to get worse 
and worse. But we have some secret source, and that is our 
innovation. We are home to every significant Internet company. 
We are home to the greatest microchip companies and technology 
companies like Apple and others. But remember, every one of 
these big companies started as a small company, and we have to 
be careful that we don't change how a company can enter the 
market, and also even how a big company can market a new 
innovation.
    At CEA, we believe we have to remain the most innovative 
Nation on Earth, and we urge you as policymakers to recognize 
our strength and innovation, and examine these policies through 
the lens of whether it is good or bad for innovation, and thus 
our economic future.
    In closing, we will continue our efforts to ensure that all 
Americans can reap the benefits of new and emerging 
technologies. However, due to layers of complexity in this and 
limitations it would place on the advancement of new 
technologies, we do not believe as drafted it is the right 
approach. We have submitted alternative language that improves 
accessibility to Internet-based communication and video 
technologies while balancing the need to promote innovation, 
and we look forward to working with all the interested 
stakeholders on a legislative approach that reflects the rapid 
innovation of our market with the desire to ensure that these 
products and services are accessible to persons with 
disabilities.
    Mr. Boucher. Thank you very much, Mr. Shapiro.
    [The prepared statement of Mr. Shapiro follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.024
    
    [GRAPHIC] [TIFF OMITTED] T7908A.025
    
    [GRAPHIC] [TIFF OMITTED] T7908A.026
    
    [GRAPHIC] [TIFF OMITTED] T7908A.027
    
    [GRAPHIC] [TIFF OMITTED] T7908A.028
    
    [GRAPHIC] [TIFF OMITTED] T7908A.029
    
    [GRAPHIC] [TIFF OMITTED] T7908A.030
    
    [GRAPHIC] [TIFF OMITTED] T7908A.031
    
    [GRAPHIC] [TIFF OMITTED] T7908A.032
    
    [GRAPHIC] [TIFF OMITTED] T7908A.033
    
    [GRAPHIC] [TIFF OMITTED] T7908A.034
    
    Mr. Boucher. Mr. Assey.

                    STATEMENT OF JAMES ASSEY

    Mr. Assey. Good morning. Thank you. Thank you, Chairman 
Boucher, Ranking Member Stearns, and members of the 
subcommittee. I appreciate the invitation to testify before you 
today on H.R. 3101, the 21st Century Communications and Video 
Accessibility Act.
    As you know, NCTA represents cable operators that serve 
over 90 percent of the Nation's cable households, providing 
voice, video, and data services, as well as over 200 cable 
networks that create and produce high-value video programming. 
And as leading providers of innovative communications and video 
services, we share the goals and objectives of H.R. 3101 to 
ensure that IP-based video, voice, and data services are 
accessible to those with visual and hearing disabilities.
    Over the past several months, we too have had productive 
discussions with many of the advocacy groups to identify 
issues, to exchange information, and generally to learn about 
developments in assistive technology. In addition, NCTA is 
actively engaged in organizations and standard setting bodies 
that focus on disability access issues. Accordingly, we applaud 
the provisions in this legislation and in the national 
broadband plan that seek to promote similar kinds of dialogue 
in exchange through industry forms and information 
clearinghouses.
    Having made that broad point, let me focus the rest of my 
comments on three areas in Title 2 of the legislation where we 
believe progress can be made if modifications are similarly 
made to improve the bill, and more importantly, to better 
support, the collaborative efforts that are necessary to 
design, develop and bring to market new assistive technologies.
    The first area focuses on closed captioning for persons 
that are hearing impaired. For some time, cable companies have 
complied with existing FCC rules that require closed captioning 
on television programming. But clearly as technology has 
evolved and as investment has fueled the development of 
broadband networks, cable programming is increasingly available 
over the Internet. And to their credit, cable programmers have 
stepped up to the challenge and worked to translate TV captions 
to Internet formats that can be viewed on various Internet 
players. But today, that translation can be a cumbersome 
process. An additional technology barrier that we face is the 
fact that many of these Internet players are on proprietary 
formats which require multiple steps in order to have your 
programming accessible online.
    But the good news is that help is on the way. Over the past 
2 years, cable programmers and operators have participated in 
an ad hoc group with the Society of Motion Picture and 
Television Engineers, also known as the SMPTE Group to work 
towards the development of standards that are designed to make 
the translation to Internet captions more seamless and to 
eliminate the need to caption programming multiple times. In 
light of this ongoing work, we would propose the provisions 
expanding captioning requirements to the Internet be tailored 
to recognize and not compete with this inner industry standard 
setting effort. In addition, we believe that further revision 
should be made to limit the scope of new obligations to TV 
programming that is distributed online and to phase in such 
obligations over time so that certain operational issues such 
as when TV programming has to be edited before it is made 
available on line can be occur.
    The second issue I wish to discuss is that of video 
description. While we continue to have significant concerns 
about the utility, the cost and the operational complexity of 
distributing video described programming, the cable industry 
would propose starting with reinstatement of the SEC's prior 
video description rules with certain modifications and with 
sufficient time afforded to implement such requirements. Such a 
tailored, pragmatic approach will provide needed time to 
refresh old rules, to secure permissions, adjust budgets to 
deal with the operational and technical complexities of 
implementation at a greater scale. But given such uncertainty, 
we similarly believe that it would be premature for Congress to 
expand the FCC's authority in this area beyond the scope of its 
prior rules until after it has evaluated the impact of such 
requirements.
    Third, we similarly believe that progress will be made with 
respect to cable menus and program guides. We can make them 
accessible through solutions that provide textual information 
in an audible form. But these solutions are in their nascent 
stage and operators must be given the time and flexibility 
needed to design and develop solutions and moreover, these 
solutions need to be based on functional objectives to avoid 
locking in any technology specific approaches.
    Mr. Chairman, we know as Chairman Waxman said that more can 
and should be done to improve the accessibility of our products 
and services for persons with disabilities. And we have no 
doubt that there are technical and operational complexities 
that we will face along the way. But we also know that now is 
not the time to throw up our hands. Now is the time to roll up 
our sleeves and we stand ready to work with you on achieving 
pragmatic solutions. Thank you.
    Mr. Boucher. Thank you very much, Mr. Assey. Mr. Franklin.
    [The prepared statement of Mr. Assey follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.035
    
    [GRAPHIC] [TIFF OMITTED] T7908A.036
    
    [GRAPHIC] [TIFF OMITTED] T7908A.037
    
    [GRAPHIC] [TIFF OMITTED] T7908A.038
    
    [GRAPHIC] [TIFF OMITTED] T7908A.039
    
    [GRAPHIC] [TIFF OMITTED] T7908A.040
    
                  STATEMENT OF BOBBY FRANKLIN

    Mr. Franklin. Thank you, Chairman Boucher, Ranking Member 
Stearns and members of the subcommittee. Thank you for the 
opportunity to be here this morning. I am Bobby Franklin, and I 
serve as executive vice president for CTIA, the wireless 
association. Your former colleague, Steve Largent, wanted to be 
here today, but he is on his way to Oklahoma where one of his 
sons will be married this weekend. In Steve's absence, I am 
here to share CTIA's thoughts on the best way to ensure that 
emerging wireless broadband services and devices meet the needs 
of every American. At the outset, let me say that we are proud 
of the commitment CTIA's members have displayed to making 
accessibility a priority. From the enactment of Section 255 in 
1996 to today, the evolution and capability has been 
significant and it is getting better all the time.
    Turning to H.R. 3101. We agree that it makes sense to 
extend the sort of protections incorporated in section 255 of 
the communications act to emerging services and devices. Over 
the last several months, CTIA has had extensive discussions 
with COAT, and I am pleased to report that there are a number 
of areas such as hearing aid compatibility requirements and the 
need for an accessibility clearinghouse where we are in 
agreement. There are, however, several areas where we have not 
yet reached agreement and it is on those issues where I would 
like to focus the balance of my statement.
    First, we believe the standard under which our members have 
operated since enactment of the 1996 Act, a standard that 
requires equipment and services to be accessible and usable if 
readily achievable continues to be logical and proper standard 
to apply to any new obligations. As a practical matter, when 
our members introduce new accessibility and functionality 
features today, even though those functions may not be required 
by Section 255, they are doing so under the readily achievable 
standard. The increasing availability of accessibility features 
and the absence of complaints filed with the FCC is strong 
evidence that the standard is working and Congress should stick 
with it.
    Second, we urge the committee to consider language to 
clarify the limits of any new accessibility obligations. In the 
walled garden that characterized wireless offerings just a few 
years ago, it made sense to assign the responsibility for 
accessibility to carriers and manufacturers, however, the 
evolution toward open platforms and significantly enhanced 
consumer choice means that carriers and manufacturers have less 
and less control over service, programs and applications that 
may be used by consumers. While our members strive to make the 
products and services they offer accessible, new law in this 
area should clarify that they are not responsible for 
applications provided by third-parties, which increasingly 
occurs without any knowledge on the part of the carrier or the 
handset maker.
    Adding limitations on liability for third party actions 
would be consistent with this committee's approach in areas 
such as copyright protection, online pharmacy regulation, data 
security protection and Wall Street reform. The committee made 
an effort in those initiatives to clarify that a service 
provider is not liable for the activities of third-parties and 
that same limiting principle should apply in this instance as 
well.
    Finally, CTIA urges the committee to streamline the bill's 
reporting requirements. As proposed, these requirements would 
be costly, raise competitive and confidentiality concerns and 
do little to provide consumers with useful information about 
the accessibility features available in wireless products and 
services. CTIA suggests that the committee consider an approach 
that would require service providers and manufacturers to 
maintain records of efforts they have undertaken to implement 
any accessibility requirements Congress may impose and to 
produce those records upon receipt of a request by the FCC if a 
complaint is filed. We believe the bill's proposed 
accessibility clearinghouse which CTIA and COAT both support 
will do much more than annual filings to ensure that consumers 
find the right devices to meet their unique needs.
    We believe these suggestions will improve H.R. 3101 and 
produce a framework that will work for our members and those 
that need enhanced access to emerging wireless broadband 
services. We will, of course, be pleased to provide the 
committee staff with specific legislative proposals that 
address each of these suggestions. Thank you again for the 
opportunity to be at today's hearing. I look forward to 
questions.
    Mr. Boucher. Thank you, Mr. Franklin.
    [The prepared statement of Mr. Franklin follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.041
    
    [GRAPHIC] [TIFF OMITTED] T7908A.042
    
    [GRAPHIC] [TIFF OMITTED] T7908A.043
    
    [GRAPHIC] [TIFF OMITTED] T7908A.044
    
    [GRAPHIC] [TIFF OMITTED] T7908A.045
    
    [GRAPHIC] [TIFF OMITTED] T7908A.046
    
    [GRAPHIC] [TIFF OMITTED] T7908A.047
    
    [GRAPHIC] [TIFF OMITTED] T7908A.048
    
    [GRAPHIC] [TIFF OMITTED] T7908A.049
    
    [GRAPHIC] [TIFF OMITTED] T7908A.050
    
    [GRAPHIC] [TIFF OMITTED] T7908A.051
    
    [GRAPHIC] [TIFF OMITTED] T7908A.052
    
    [GRAPHIC] [TIFF OMITTED] T7908A.053
    
    [GRAPHIC] [TIFF OMITTED] T7908A.054
    
    [GRAPHIC] [TIFF OMITTED] T7908A.055
    
    [GRAPHIC] [TIFF OMITTED] T7908A.056
    
    [GRAPHIC] [TIFF OMITTED] T7908A.057
    
    [GRAPHIC] [TIFF OMITTED] T7908A.058
    
    [GRAPHIC] [TIFF OMITTED] T7908A.059
    
    [GRAPHIC] [TIFF OMITTED] T7908A.060
    
    Mr. Boucher. And thanks to each of our witnesses this 
morning for your testimony. Let me also take this opportunity 
to thank each of you again for the collaborative conversations 
that we have underway. All of you are involved in those along 
with members and staff at the subcommittee level and our goal 
through those discussions is to achieve consensus and agreement 
on the legislation that our subcommittee should approve. I look 
forward to continuing our work with you on that. I am going to 
defer my questions momentarily and recognize the author of the 
legislation, the gentleman from Massachusetts, Mr. Markey for 
his round of questions.
    Mr. Markey. Thank you, Mr. Chairman, very much. Sergeant 
Major Acosta, thank you so much for your service in protecting 
our country. Thank you so much for your service today in 
protecting millions of Americans who are sight and hearing 
impaired. We thank you for your continued service. Sergeant 
Major, you heard Mr. Shapiro. Mr. Shapiro is calling for a 
voluntary system, let the marketplace respond. You were here 2 
years ago giving the same kind of compelling testimony. What 
would you say to Mr. Shapiro? He represents a coalition, the 
CEO of Microsoft, the CEO of Hewlett-Packard, the CEO of Sony 
are all part of his coalition. What would you say to the CEOs 
of these companies? What is your message to Mr. Shapiro and all 
of those CEOs that he is representing here today who are saying 
that they want a voluntary system?
    Sergeant Major Acosta. Well, sir, thank you very much for 
that question. To elaborate a bit more, before we started with 
the hearing here, Mr. Shapiro introduced himself, said I am 
Gary Shapiro, pleasure to meet you, Sergeant Major Acosta, I am 
here to testify with you. And at that point in time, I had to 
stop him. Are you here with me or are you here against me? 
Because if I leave it in your hands, there is nothing to 
discuss. We are here to discuss a measure, H.R. 3101, which 
impacts the entire Nation, which will assist me and millions. I 
am not just here to represent myself. I represent American 
Council of the Blind, COAT and millions of blind individuals 
here in the United States of America. As you recall last year, 
we had approximately--we stated 10 million. I am sorry to say, 
sir, those numbers have doubled and more. They are not 
decreasing. They are increasing. Not just because of the 
diseases that are out there as you well know.
    In some cases some of us who are coming back from the war 
zone are completely blind. We didn't expect to come home in 
this situation, but we have had to embrace it in order to move 
on with our life. So if you are asking me, sir, would I leave 
this measure in his hands or let the course take its only time 
to deal with these issues that we are introducing to you? 
Absolutely not, sir. It is imperative that this measure passes, 
H.R. 3101 means the world to us. It brings some sight back to 
us. It means a whole lot. It may bring back some of the hearing 
that we have lost and mind you, sir, I am a package deal.
    I am almost like Apple. When I got hit, I suffered through 
traumatic brain injury. I lost my eyes. I lost my smell, my 
taste in addition to that, I lost some hearing. So I know what 
this measure means. As you can see, Mr. Shapiro hasn't lost a 
thing. Thank you, sir.
    Mr. Markey. Mr. Shapiro, what would you say to Sergeant 
Major Acosta?
    Mr. Shapiro. Well, first I thanked him first for his 
service to our country and it is obviously--you can't be a 
human being and not have an emotional response that I think we 
all share. What I am saying, though, is you cannot require 
every new product to be responsive to every disability and that 
is what the legislation you have written requires.
    Mr. Markey. My bill does not do that, Mr. Shapiro. My bill 
does not require and you had an op ed yesterday which was very 
deceptive. My bill does not require that, and I wish you would 
just stop repeating that. It is untrue.
    Mr. Shapiro. If you go to page 13 of the legislation, the 
sentence is pretty clear.
    Mr. Markey. There is an undue burden provision in the 
legislation that allows for smaller companies, newer 
technologies to be able to escape. But if you can comply, if 
you can provide this technology, you must comply because 
Sergeant Major Acosta and millions of other Americans need 
accessibility to it. But there is an undue burden exception, 
Mr. Shapiro. And I just wish that you would keep that as part 
of your discussion and not have this broad brush as your op ed 
in The Washington Times yesterday suggested, ``Bill seeks 
government control on features on every Internet device you 
use,'' ``Dems want to redesign your iPhone.'' This man and 
people like this man--and there are millions of them. They are 
90 years old. They are small children. They all deserve to have 
access to this technology, Mr. Shapiro. This is not helpful.
    If the CEO of Microsoft and Hewlett-Packard and Sony is 
maintaining that they cannot meet this burden, then I just 
think they are dead wrong. I think they have the capacity to 
meet this burden and they should meet this burden. And they 
should be sitting here as well defending it, saying they can't 
do it, can't serve these people in the same way they served our 
country. And I am talking about the greatest generation all the 
way down to Major Acosta and small children right now across 
our country it is not just right.
    Mr. Boucher. The gentleman's time has expired. And, Mr. 
Shapiro, you will have an opportunity. I am going to ask you 
some questions. The gentleman from Florida, Mr. Stearns, is 
recognized for his questions.
    Mr. Stearns. Thank you, Mr. Chairman. I think the gentleman 
from Massachusetts is creating an emotional bind here setting 
up a war hero against a person who is trying to legitimately 
point out there are some differences he feels are necessary to 
be made to the bill. And I think it is unfortunate that the 
gentleman from Massachusetts did that. He did the same type of 
thing with the V-Chip and we all know the V-Chip did not work. 
It was difficult to implement. It was confusing. I don't think 
there is probably one parent in this country that figured out 
how to program their computer.
    Mr. Markey. Will the gentleman yield?
    Mr. Stearns. No, I won't yield.
    Mr. Markey. It is not true.
    Mr. Stearns. It is true. It is overwhelming. You came out 
with the same emotional arguments on the V-Chip. You did the 
same type of thing. I think it is totally unfair for you to set 
up a war hero with a CEO of an association and try to play that 
emotional game that you do continually.
    So, Mr. Chairman, I think we should allow Mr. Shapiro to 
speak. He is not saying he wants all voluntary. He is just 
saying there is a difference between readily achievable and 
undue burden. And he is just saying look to, Apple, as the 
gentleman from Massachusetts pointed out, as in their iPad, it 
is all allowing people who are blind to have accessibility on 
the iPad, there are also people who have impaired hearing that 
have accessibility to the iPad.
    If it is done in industry on a voluntary basis for the 
iPad, why can't it be done across industry? I think Mr. Shapiro 
is saying write the bill with the goals so that it can be done 
so that what was done with iPad could be done with all the 
phones so that the Sergeant Major hero here does not have a 4-
year-old phone, but he pulls out a phone like an iPhone which 
is also like an iPad. I think what we are trying to do in this 
hearing is not create an emotional frenzy here; we are trying 
to understand how to do it. You offered this bill, Mr. Markey, 
2 years ago, perhaps more. And Mr. McCormick and others have 
come forward to try to say this is how it should be improved, 
and lo and behold, that improvement was incorporated.
    So I think, Mr. Shapiro and Mr. Franklin, when I hear from 
his discussion, he is asking look it, there are things we 
should be doing. We should be very careful not to move on an 
emotional basis on this because this has a huge impact. I think 
it is a noble goal what we are doing here, and I think 
everybody in this room wants to make sure that we have products 
that provide accessibility for the disabled, the blind and the 
hard of hearing.
    In fact, I have a bill with Eddie Towns that does this for 
the Blind Association that cars that you can't hear--we suggest 
that the automobile manufacturers ought to make some kind of 
sound so people who step off the curb--if all the cars in 
America are electric cars, you can't hear them, they won't be 
able to hear them either. I am just like everybody else. I want 
to solve this problem. But I think creating an emotional setup 
between a CEO and a war hero is not the way to do it. Mr. 
Shapiro, maybe you should be allowed to talk in a logical 
manner about what your concern is with the undue burden, and 
perhaps most of what you think can be readily achievable can be 
done.
    Mr. Shapiro. Thank you so much, Mr. Stearns. We have 2,500 
companies that exhibit each year at the International CES in 
Las Vegas. Most of those are small startup companies. They are 
betting their life savings on----
    Mr. Stearns. They are not Hewlett-Packards
    Mr. Shapiro. We have those as well. And frankly, I am 
concerned less about them because they have the staff and the 
ability to respond to the things. They would have to disclose 
all their business plans under this proposal. But take a 
company like Chumby. Chumby is a San Diego company that came up 
with an idea that you could attach a product to the Internet 
basically and download some features and it could serve as an 
alarm clock. Under this legislation, in the course of designing 
that product, they would have to keep careful records, they 
would have to talk to all sorts of disability groups, they 
would have to prove--they have the burden of proof, Congressman 
Markey.
    There is no undue burden. They would have to file all these 
documents. They would never be funded. And they would also have 
to prove that they are accessible to every type of disability. 
This isn't only about vision and hearing. The law as you have 
written it says every type of disability, physical, mental, 
everything. It is impossible to know what that is. I think the 
role of Congress is to say here is what we are asking you to 
do, Here are the goals we are trying to reach and go get it, go 
work with industry and the disability community and come back 
with a proposal that will meet these very specific goals.
    But to say every product has to have every feature to meet 
every disability, I don't know where we would be under this 
legislation with all the couple of hundred thousand 
applications that Apple has now. I don't know where we would be 
if the Internet was--all these other technologies. The 
legislation basically applies to everything connected to the 
Internet. Services--it appears to be software as well as 
hardware. This is not only about big companies. This is about 
entrepreneurs. This is about innovation in this country where 
we are leading the world and it is going to get us out of this 
lousy economy. And we can't afford to start saying you have to 
do everything every little company and every big company for 
everything. Just be very specific, state the goals, get the 
facts on the table. We have been proposing suggestions for this 
for a year now and we still have the same legislation with this 
very, very broad definition that includes everything and 
every--I mean, the requirements for a company here--startups 
would go away. I don't know how a company could be funded with 
this type of requirement.
    Mr. Stearns. I just conclude, Mr. Chairman, what he is 
trying to say is jobs in America are created by small 
businesses. And if we put the burden on these small businesses, 
we will not create jobs. In this economy, we do not need to 
have mandates that are overly burdensome to the small 
businesses. And I think Mr. Shapiro's point is basically let us 
see if we can work it out for this noble goal, and ultimately, 
I hope we can.
    Mr. Boucher. Thank you very much, Mr. Stearns. 
Notwithstanding the intensity of the dialogue, I would 
underscore once again that we are involved in a collaborative 
process and we are working our way toward consensus and we are 
actually making a great deal of progress. And in order to move 
us even further along that path, I have several questions, the 
answers to which I hope will be instructive. Can we get 
agreement that in terms of assuring accessibility, it is not 
necessary that the device itself have the accessibility feature 
built in if there are reasonably priced third party 
applications that achieve that functionality? Mr. Franklin.
    Mr. Franklin. Mr. Chairman, I think you are highlighting a 
very important point about the evolution in the wireless 
industry and what is happening each and every day. There are a 
number of examples that----
    Mr. Boucher. Well, without going into all of the examples, 
I take it your answer would be yes?
    Mr. Franklin. Absolutely yes.
    Mr. Boucher. Mr. Assey.
    Mr. Assey. Yes.
    Mr. Boucher. The answer from the cable industry is yes. Mr. 
Shapiro?
    Mr. Shapiro. Yes.
    Mr. Boucher. Another yes. Mr. McCormick. Let the record 
show that Mr. McCormick is nodding his head. I think that was a 
yes. Ms. Hamlin.
    Ms. Hamlin. I am not an engineer and I am not an attorney. 
But my concern is if you wait for applications--when I have my 
hearing aid compatible phone, I want to make sure it is there. 
I am not an engineer. But I would want to be absolutely certain 
that it would actually work. My consumers, people who talk to 
me, want to be able to open the box and say yes. I found it 
difficult to get a cell phone because no one knew you had to 
turn on the telecoil. So it needs----
    Mr. Boucher. So maybe I could modify the question slightly 
and add an assumption or two. Let us assume that the third-
party application is functional, that it is readily available 
and that it is reasonably priced. And if all of those 
conditions are met, would you agree that the third party 
application should be acceptable to achieve accessibility?
    Ms. Hamlin. Again, I am not the engineer. I just hope----
    Mr. Boucher. Just assuming all of that is accurate.
    Ms. Hamlin. I am not sure.
    Mr. Boucher. We have a not sure. Sergeant Major Acosta, 
would you care to comment?
    Sergeant Major Acosta. Yes, sir. My answer is no. The 
reason suitcase the cost. Here we go again with the cost. And 
when we talk about the cost----
    Mr. Boucher. Sergeant Major, my time is a little bit 
limited. Let me just ask the question in this way. If you 
require that every device have the functionality embedded, that 
is going to raise the price of every device that everybody has 
to pay. Let us assume that the application is reasonably 
priced. The device itself would therefore be somewhat cheaper. 
Would that not be a satisfactory outcome?
    Sergeant Major Acosta. Well, sir, can I give you an 
example?
    Mr. Boucher. Sure.
    Sergeant Major Acosta. I am going to go buy me an iPhone 
and I am going to pay one price. I am going to go buy me an 
iMac or the Mac Pro, I am going to pay one price and everything 
is going to be in there. Those items are going to be a lot less 
expensive than if I was to go buy a Microsoft or an IBM 
compatible laptop or PC. And adding the software to it--I will 
give you one prime example--JAWS $1,400. Oops I just went over 
the price of an Apple.
    Mr. Boucher. That would not be reasonably priced software. 
But assuming a reasonable price and one can perhaps differ as 
to what that is. Assuming that you have an affordable price for 
individuals, would you not agree that a third-party application 
would be satisfactory?
    Sergeant Major Acosta. I am sorry. What would be 
reasonable?
    Mr. Boucher. A lot of the applications that are purchasable 
today are a dollar or 2. That is fairly common in the app 
store.
    Sergeant Major Acosta. Well, sir, what would be reasonable 
to us compared to the industry that is putting out the market?
    Mr. Boucher. If you require that the device, every device 
that is marketed be embedded with the functionality, that 
raises the price of all of the devices. And so it is a question 
of whether everyone pays this cost or whether the additional 
marginal cost, which again, would not be that great, would be 
borne by those that are desiring that accessibility.
    Sergeant Major Acosta. Well, sir, again, when we went from 
analog to digital, the government handed out coupons to be able 
to afford these items. Aren't they going to do the same thing?
    Mr. Boucher. Thank you, Major Acosta. I think we understand 
that you don't welcome that concept. Let me ask this question: 
The FCC has hearing aid compatibility standards for cell 
phones. Those apply not to every cell phone, but to a 
percentage of the cell phones. And these functionality 
requirements address things like--or assure things like a 
variety of devices instead of one standard device. A variety of 
functionalities, instead of one standard functionality and also 
a variety of prices based upon the various devices that are 
available and their functionality.
    So my question to you is would a similar kind of approach 
work with regard to accessibility for the hearing impaired on 
other kinds of devices or for Internet accessibility with 
regard to cell phones themselves? The legislation before us, 
basically, requires the functionality for all devices unless it 
is established that to embed that function would constitute an 
undue burden. So would it be--would it be better to adopt the 
FCC's approach with regard to cell phones that exist today so 
that it is only a percentage of devices for which this 
accessibility functionality is required? Who would like to 
answer? Ms. Hamlin?
    Ms. Hamlin. Again, part of the problem is--we went through 
a long, hard negotiations to get to that point. And we wanted 
to work with industry and we were happy that we came to that. 
But the problem is--there are two problems, first of all, that 
the companies must then meet the requirements and then the 
consumers have to know. People like myself who came into 
hearing loss suddenly and people who age into it may not even 
know. So it has to be incumbent upon people to also let people 
know.
    So I go to my Web site now to find out which cell phones 
are compatible and then I go to my store and I find out, well, 
oK, there is a list of compatible phones, but they are not 
available anymore. So it would have to not just be a matter of 
coming up with a way to say, oK, we have a percentage. But they 
would have to really meet them, they would have to really meet 
the percentages and we would have to also make sure that people 
actually understood what cell phones----
    Mr. Boucher. What it is they are buying?
    Ms. Hamlin. What it is they are buying, how are they going 
to get a hold of it.
    Mr. Boucher. If the percentages are actually hard 
requirements and if there is clear marketing information 
available, potentially that approach could work.
    Ms. Hamlin. It might be able to work.
    Mr. Boucher. OK. Thank you, Ms. Hamlin. My time has 
expired. The gentleman from Alabama, Mr. Griffith, is 
recognized for 5 minutes.
    Mr. Griffith. Thank you. And we appreciate this testimony 
and the back and forth is invaluable to us. I would say this, 
that this is a very innovative and creative area of our economy 
and the ingenuity that has been displayed over the years has 
just been remarkable. We have gotten as far as hearing is 
concerned. I think the quote from Helen Keller was my loss of 
sight separates me from objects, my loss of hearing separates 
me from people. We are all sensitive to that.
    I will give you an example. If we required every biotech 
company to develop a drug that treated every cancer, there 
would be no innovation. We would not be here where we are today 
with the breakthroughs in melanoma, et cetera. We are going to 
see the same breakthroughs. We are going to see the same 
breakthroughs for our hearing impaired, our sight impaired and 
we are making great progress. I hope that this bill will be 
worked out to the satisfaction of all. We have got to move it 
and realize that these little small, small companies with 1 or 
2 people that come up with this idea in their garage and they 
work at it after work is over and come up with the things that 
have really made a difference in our lives in America. It is 
the unique culture of America that allows that.
    I don't really have any questions for you because I think 
every one of your hearts are in the right place and I hope that 
we will reach the right conclusion. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Griffith. The 
gentleman from Washington State, Mr. Inslee, is recognized for 
5 minutes.
    Mr. Inslee. Thank you. I want to ask the question about how 
we design the bill to make sure that we capture new 
innovations, that we don't freeze in time existing standards 
and don't take advantage of innovations. Let me give you an 
example. One of the things the bill right now requires a button 
on a remote control, designated for activating the closed 
caption function.
    As new innovations move forward, perhaps we will have voice 
activated or have other systems other than a button. I guess 
the question I would like to ask the panel, how do we design a 
system to capture new generations of innovation? Let me give 
you an example. Would it be better to define the user 
experience that we expect? For instance, we expect something 
that will activate a particular activity that will only require 
two actions by the user and then let the technology develop as 
to what those two actions are? In other words, we define it 
based on the user interface rather than the particular 
technology. I just would ask the panelists, is there a way to 
do that and a way to make sure that we capture new generations 
of technology. Would anyone like to offer a thought in that 
regard?
    Mr. Assey. I will try, Congressman. I think what you point 
out is something that I mentioned that is critically important 
that when we address some of these issues, that we address them 
from the standpoint of achieving a functional objective, a 
button on a remote may work in some cases, it may work and not. 
In other cases, it may not. But what is important is that we 
have a clear idea of the problem that we are trying to solve 
and then we turn over to the engineers the best way to try and 
achieve that problem. And that hopefully will allow for new 
innovative solutions that may ultimately reach the same 
functional goal.
    Mr. Inslee. So I would like to work with any of you that 
have suggestions about how to refine the bill in that 
direction. I think it makes sense to think about this from the 
user perspective rather than the particularly defined 
technology. The second question I want to ask the panelists is 
about the undue burden in the bill right now and I think there 
is something we ought to at least think about what that means. 
Right now I would understand this if a company--let us just 
take a large manufacturer that is going to come out with a 
relatively niche product--and the bill as written would require 
access--unless it is an undue burden for the entire 
manufacturing company, for the revenue stream the way I would 
look at this, for the whole revenue--compared to the whole 
revenue stream of the whole company.
    So let us assume you have got a $2 billion-a-year company 
and you have got a product that may only generate a million 
dollars revenue. Right now, as I understand the undue burden 
requirement, you would compare the cost of doing the access for 
the new product against the revenue stream of the entire 
company, which may, I suppose, could exceed the entire proposed 
revenue of that particular niche product.
    I guess a question I have is, would it make any sense for 
us to define the undue burden as comparing it as the undue 
burden compared to the revenue stream of the product that we 
are talking about? Would that be a more rational way to define 
undue burden? I guess the reason I suggest this is that if you 
compare the cost of the entire cost of the entire corporation, 
you may just decide not to produce the product at all. And we 
want to make sure we get these products out there. So I guess I 
would ask for the panelists' comments about that idea.
    Mr. Shapiro. Congressman, I think you raise an excellent 
point and that is why we think the undue burden standard is 
inappropriate and we use a reasonably achievable standard. And 
if you think about it--readily achievable. If you think about 
it, the example you just gave, that company would not produce 
that product because if it is going to cost them--it is not 
only the revenue stream, if it costs more than the profit, they 
just don't produce it.
    Mr. Inslee. To short circuit your answer a minute. I 
consider undue burden a little higher obligation on the 
manufacturer than readily achievable. What I am suggesting is 
that you maintain the undue burden language but you apply it to 
the revenue stream of the product involved. Do you see what I 
am suggesting?
    Mr. Shapiro. I understand what you are suggesting, but 
still what you are saying is unless as a manufacturer, making 
that decision to invest in the research and development, the 
design, all the things required, talking with different 
portions of the disabled community, figuring out--and even then 
you don't know if you have an undue burden unless you get a 
special exemption from the government saying you have an undue 
burden. That is why we are so concerned about innovation. Undue 
burden is the wrong standard here in our view. We believe 
readily achievable has worked very well. Undue burden is for 
the construction industry for something that will last 30 or 40 
years. These technologies have a shelf life of 2 or 3 years at 
the max and you have to respond quickly. This would be a choke 
collar around innovation.
    Mr. Inslee. Ms. Hamlin, did you want to add something?
    Ms. Hamlin. I have to admit and I am very concerned about 
it, we look at innovation and we want innovation. But here is 
what I see this bill does that sort of answers that is that we 
are not just looking at one company. You are not saying only 
one company has this extra added issue that they have to deal 
with. It is all of them across the board. So now the playing 
field is level. Now you have everybody at the same standard.
    So that--oK, everybody now has to look at the same issue 
and design in the same way so the cut throat industry that is 
so eager to get everything out so quickly, if everybody is on 
the same page, I think, it is my feeling, that that will answer 
that question and help us get the products we need and the 
companies not have to feel like they have to kill each other to 
get to that point.
    Mr. Inslee. Thank you.
    Mr. Boucher. Thank you very much, Mr. Inslee. The gentleman 
from Nebraska, Mr. Terry, is recognized for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman. And let me first 
compliment you and Mr. Inslee on what I thought were 
appropriate, probing questions which are a part of the process 
at a hearing like this where we really want to figure out how 
to make this the best bill that is possible and achieve the 
goals of the bill. In that regard, let me then take a personal 
point of privilege here to say that I just feel slimed right 
now, politically slimed by the setup by--question by Mr. 
Markey, and I apologize to everyone of you up there that had to 
be a part of that or were put into that position. That just 
seems to be the tone right now with the leadership that is in 
charge of this place. It is intimidation and how dare anyone 
have an opinion different.
    And if you dare to express it openly, we will come after 
you. And, Mr. Shapiro, you just saw what the new tone in 
Washington is. We have seen it from Mr. Markey before, with cap 
and trade. We had a gentleman that testified from a major 
electrical generation company and dared to testify in 
opposition and within hours had a filing to investigate him at 
the request of Mr. Markey. That is the level of intimidation 
that is occurring here right now. And I----
    Mr. Boucher. Mr. Terry, let me----
    Mr. Terry. You don't need to suggest that we--I think your 
point has been made. Let us direct questions towards the issue 
that we have before us. Terror, in all due respect, Mr. 
Chairman, you did not ask Mr. Markey to do the same thing.
    Mr. Boucher. Well, Mr. Markey was addressing the subject 
matter, Mr. Terry.
    Mr. Terry. No. Mr. Chairman, in all due respect--reclaiming 
my time. In all due respect, Mr. Markey was pitting 2 witnesses 
against each other to create a fight between them and that was 
demeaning to this subcommittee. Mr. Chairman, your questions 
were completely appropriate. And that is the questions I 
thought we were going to ask here today. So let me help 
clarify.
    Ms. Hamlin, you seem to have a pretty good grasp and feel, 
but I need to kind of work through this a little bit with--I am 
confused. If there is a Mac that doesn't provide--I am sorry--a 
Mac Pro that provides applications that you feel are necessary 
for you with your hearing loss but a Microsoft product doesn't, 
is this bill supposed to make the Microsoft one have exactly 
the same applications as the Mac Pro? Is that the goal?
    Ms. Hamlin. People with hearing loss--and I believe it is 
true with people with vision loss as well--have a wide range of 
needs. My needs--I have a hearing aid. I have a cochlear 
implant. My needs may be different when I pick up a cell phone 
than someone else. If you design it so that I can use it, 
somebody with a mild hearing loss, somebody who aged into 
hearing loss or so that grandma can use it, as well as somebody 
who has a significant loss can pick it up and read the text and 
be able to have that as well, then you have created a universal 
design so that the Sergeant Major can also use it. So I don't 
have to worry about, oK, I go to the phone--everybody said how 
wonderful Apple is. I cannot use an Apple phone because it 
isn't compatible with my hearing aid. If you created an Apple 
now, I get all the wonderful features that Apple has that I 
cannot get here. But that----
    Mr. Terry. That is an interesting point.
    Ms. Hamlin. What I want is to have everyone have that 
access. And people who age into their hearing loss simply do 
not know, just as the Sergeant Major didn't know before he 
learned about vision loss--I didn't know before I woke up one 
morning about hearing loss. People don't know what is 
available. If it is out there, you don't have to fiddle around 
and wonder what do I do now.
    Mr. Terry. I am trying to work my way through this. In 
regard to Mr. Boucher's questions about some cell phones are 
capable with hearing aids, some are not. So the position would 
be that all should be?
    Ms. Hamlin. My position would be, yes, I would love to see 
every single cell phone compatible with anyone who wants to--
because I am not worried about me so much. I am worried about 
my son and my daughter. They need access to the Internet. They 
can't work. I want them to pay taxes and work.
    Mr. Terry. That is the question. If there are items out 
there that accomplish that task, is it an undue burden in 
essence and I think we need to discuss what undue burden really 
means, but my time is up. But the question is then if there is 
products out there that are reasonable and accessible, does 
that mean that every one has to adopt it? I yield back.
    Mr. Boucher. Thank you very much, Mr. Terry. And we want to 
thank you each of our witnesses for attending here today, 
sharing your views on this matter with us. Your testimony has 
informed us. I will, again, thank you all of you for the 
collaborative process we have underway to try to reach census 
and agreement on this measure and we are making great flog that 
exercise.
    I would encourage you to redouble your efforts in that 
respect and attend all of the meetings and share your good 
thoughts on how we can reach consensus because it is our intent 
to bring this legislation to markup in the not too distant 
future. We haven't picked a date yet. But it is around the 
corner and so we need your help to move as rapidly as we 
possibly can. With the committee's thanks to each of you, to 
all of our witnesses for your comments today, this hearing 
stands adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7908A.061
    
    [GRAPHIC] [TIFF OMITTED] T7908A.062
    
    [GRAPHIC] [TIFF OMITTED] T7908A.063
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
